No.

 

IN THE

Supreme Court of the United States

DUANE ALLEN SIKES,
Petitioner,

Vv.
UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The Petitioner, Duane Allen Sikes, asks leave to file the enclosed Petition for
Writ of Certiorari without prepayment of costs and to proceed in forma pauperis in
accordance with Supreme Court Rule 39. The filing of this petition is a continuation
of the representation of the Petitioner under a Criminal Justice Act (18 U.S.C. §
3006A) appointment of the Office of the Federal Public Defender for the Middle

District of Florida, by the United States District Court.
WHEREFORE, Petitioner Duane Allen Sikes humbly prays for leave to

proceed in forma pauperis.

Respectfully submitted,

James T. Skuthan
Acting Federal Deferider

 
       

Stephen J. Largs
Research and Writing Attorney

orida Bar-0137227
Supreme Court Bar 242621
Federal Defender’s Office
201 South Orange Avenue, Suite 300
Orlando, Florida 32801
Telephone (407) 648-6338
email stephen_langs@fd.org,
Counsel of Record for Petitioner
